Case: 20-50476

Document: 00515695557

Page: 1

Date Filed: 01/06/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
January 6, 2021

No. 20-50476
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Dario Reyes-Torres,
Defendant—Appellant.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 7:19-CR-270-1
Before Higginbotham, Jones, and Costa, Circuit Judges.
Per Curiam:*
Dario Reyes-Torres challenges the constitutionality of his bench trial
conviction and the resulting 15-month sentence imposed for possession of a
firearm by an alien illegally and unlawfully in the United States, in violation
of 18 U.S.C. §§ 922(g)(5) & 924(a)(2). He contends that the Second

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-50476

Document: 00515695557

Page: 2

Date Filed: 01/06/2021

No. 20-50476

Amendment’s right to keep and bear arms should extend to him, despite his
immigration status, and that, therefore, § 922(g)(5) is unconstitutional. The
Government moves for summary affirmance or, in the alternative, an
extension of time to file a brief.
Reyes-Torres raises an argument that is foreclosed by United States v.
Portillo-Munoz, 643 F.3d 437, 439-42 (5th Cir. 2011), in which we held that
the Second Amendment’s protections regarding the right to carry and
possess firearms did not extend to aliens illegally or unlawfully present in the
United States and, therefore, § 922(g)(5) was constitutional under the
Second Amendment. Accordingly, the motion for summary affirmance is
GRANTED, the alternative motion for an extension of time is DENIED
as unnecessary, and the judgment of the district court is AFFIRMED.

2

